         U.S. Department of Energy
         Office of Inspector General
         Office of Audit Services




Audit Report
Management Controls over
BWXT’s Teaming Partner
Arrangement at Pantex




OAS-M-06-04                            February 2006
                                            2

approval and BWXT reimbursed the parent company of Bechtel, Bechtel National, for
indirect costs in excess of contract limits. This occurred because the Pantex Site Office
did not: 1) ensure that BWXT complied with contractual provisions that limited
post-retirement health benefits to BWXT employees, and 2) implement adequate controls
to mitigate potential conflict of interest situations involving purchases from Bechtel
National and affiliates. As a result, the Department was at risk of paying $3 million in
post-retirement health benefits for individuals who were ineligible for the benefits.
Additionally, the Department has reimbursed BWXT approximately $90,000 for
questionable costs associated with indirect charges made by Bechtel National.

During our review we identified a similar teaming arrangement at the Department's
Nevada Test Site (Nevada). According to Nevada personnel, integrated
subcontractor/teaming partner employees could receive Government-funded
post-retirement health benefits.

The Office of Inspector General has previously identified problems related to contractor
post-retirement health benefits. In our report, Contractor Post-Retirement Health
Benefits at the Oak Ridge Reservation (DOE/IG-0690, May 2005), we found that the
Department's NNSA incurred unreasonable costs for contractor employee post-retirement
health benefits at the Y-12 National Nuclear Security Complex (Y-12). NNSA was
paying 100 percent of the employer's portion of post-retirement health benefits for Y-12
employees who transferred from the corporate offices of BWXT and Bechtel National
regardless of how long they worked in the Department's service. This will result in a
future liability of more than $7 million for BWXT/Bechtel employees at Y-12. Based on
our report, NNSA agreed to modify all contracts at the earliest opportunity to ensure that
non-Department corporate service credit for transfers does not count toward eligibility for
post-retirement health benefits.

MANAGEMENT REACTION

Management concurred with our recommendations and indicated that they had initiated
corrective actions to address the recommendations. Additionally, management stated that
subsequent to the completion of our fieldwork, Bechtel became a member of BWXT
Pantex, L.L.C. and all of the Bechtel employees at Pantex were transferred to BWXT.
While these actions should eliminate the risk of inappropriate future payments for
post-retirement health benefits and ensure that future related party transactions with
Bechtel National are subjected to Department oversight, the Department needs to ensure
that related party transactions are identified and appropriately controlled in the future.
Management comments are summarized in our report and are included in their entirety in
Appendix 3.

Attachment

cc:   Administrator, National Nuclear Security Administration
      Chief of Staff
      Manager, Pantex Site Office
      Director, Policy and Internal Controls Management, NA-66
REPORT ON MANAGEMENT CONTROLS OVER BWXT'S TEAMING
PARTNER ARRANGEMENT AT PANTEX


TABLE OF
CONTENTS


  Teaming Partner Arrangement

  Details of Finding                                1

  Recommendations                                   2

  Comments                                          3


  Appendices

  1. Objective, Scope, and Methodology              5

  2. Prior Audit Reports                            7

  3. Management Comments                            8
Teaming Partner Arrangement

Related Party       BWXT Pantex, L.L.C. (BWXT) did not always act to minimize
Transactions        costs to the Department of Energy (Department) when
                    administering the Bechtel North Texas, Inc. (Bechtel) subcontract.
                    Specifically, BWXT included Bechtel employees in its
                    Government-funded post-retirement health benefits plan without
                    Department approval. In addition, BWXT paid indirect charges
                    from Bechtel's parent company, Bechtel National Incorporated
                    (Bechtel National) in excess of contractual amounts.

                    BWXT included Bechtel employees in its Government-funded
                    post-retirement health benefits plan without Department approval.
                    At the time of the subcontract award, BWXT had indicated that it
                    would seek Departmental approval to include Bechtel employees
                    in the post-retirement health benefits plan. Although it did not
                    seek or obtain Departmental approval, BWXT included one
                    Bechtel retiree in the post-retirement health plan who is currently
                    receiving benefits. Additionally, 29 current Bechtel employees
                    may, upon retirement, receive post-retirement health benefits.
                    Specifically, BWXT included these 29 employees in the annual
                    calculation of liability for Government-funded post-retirement
                    benefits.

                    BWXT also paid Bechtel approximately $90,000 in questionable
                    costs, or approximately 10 percent of work order values, for
                    indirect charges that were in excess of contractual rates. For
                    example, in May 2003, BWXT approved the temporary transfer of
                    a Bechtel National employee to Pantex to provide support services
                    for environmental remediation. BWXT agreed to pay $83 per hour
                    for the employee's services. However, BWXT incurred charges of
                    $110 per hour for this individual once the final rate was received
                    from Bechtel National.

Oversight and       The Pantex Site Office did not ensure that BWXT:
Control Structure
                         •    Complied with contractual provisions that limited post-
                              retirement health benefits to BWXT employees; and,

                        •      Established adequate controls to mitigate potential
                               conflict of interest situations involving purchases from
                               Bechtel and Bechtel National

                    The BWXT prime contract states that only BWXT employees are
                    eligible for the post-retirement health benefits package; however,
                    the Pantex Site Office did not require BWXT to adhere to
                    contractual limitations. BWXT included Bechtel employees in




Page 1                                                              Details of Finding
                         Government-funded post-retirement health benefits despite the fact
                         that they did not transfer to BWXT. In response to our review, the
                         Pantex Site Office issued a memorandum to BWXT which stated
                         that Bechtel employees were not eligible to participate in the
                         BWXT post-retirement health benefits program. The Pantex Site
                         Office based its determination on the fact that Bechtel employees
                         do not transfer to BWXT, but remain employees of Bechtel while
                         working at Pantex.

                         In addition, the Pantex Site Office did not require BWXT to
                         provide a conflict of interest mitigation plan for purchases from
                         Bechtel National even though Bechtel and its employees have
                         influence at BWXT, and the Department has required other
                         contractors to provide conflict of interest mitigation plans for
                         purchases from affiliates. Bechtel is in a position to influence
                         BWXT purchase decisions since Bechtel has non-voting
                         representation on the BWXT Board of Managers, and Bechtel
                         personnel directly impact the amount of fee BWXT earns as a
                         result of the teaming relationship. Since BWXT was not required
                         to adopt a conflict of interest mitigation plan, it did not apply
                         contract provisions that would have required it to obtain
                         contracting officer pre-approval of all purchases from corporate
                         affiliates and document external review of indirect rates.

Overstated Liabilities   As a result, the Department was at risk of paying $3 million in
and Costs Incurred       post-retirement health benefits for retirees who were not eligible to
                         receive the benefits. In addition, the Department was at risk of
                         reimbursing BWXT for questionable costs in indirect rates
                         associated with $1,000,000 in costs for work performed by
                         Bechtel.

                         During our review we identified a similar teaming arrangement at
                         the Department's Nevada Test Site (Nevada). According to
                         Nevada personnel, integrated subcontractor/teaming partner
                         employees could receive Government-funded post-retirement
                         health benefits.


RECOMMENDATIONS          We recommend that the:

                               1. Manager, Pantex Site Office:

                                         a. Determine the allowability of costs incurred for
                                            purchases made from Bechtel affiliates and
                                            funds already spent to provide post-retirement
                                            health benefits to Bechtel employees;



Page 2                                                                  Recommendations
                             b. Determine the appropriateness of including
                                Bechtel employees in the BWXT
                                post-retirement health benefits plan, and if
                                necessary, remove employees from the health
                                benefits plan and reduce the associated
                                liability; and,

                             c. Direct BWXT to cease awards to Bechtel
                                affiliates until controls over related-party
                                transactions, which include a Department-
                                approved Organizational Conflict of Interest
                                Mitigation Plan with thresholds for Department
                                notification and consent, are implemented.

                   2. Associate Administrator for Management and
                      Administration, National Nuclear Security
                      Administration (NNSA):

                             a. Develop and issue guidance related to
                                employee benefits for integrated subcontractors
                                included in teaming partner arrangements; and,

                             b. Determine whether controls over integrated
                                subcontractors at Nevada and any other site
                                with teaming partner arrangements are
                                adequate to protect the Government's interest.


MANAGEMENT   Management concurred with our recommendations and indicated
REACTION     that they had initiated corrective actions to address our
             recommendations. Specifically management: 1) began the
             allowability determination process for purchases from Bechtel
             affiliates, 2) requested that BWXT provide the amount of funds
             spent to date for the Bechtel employee receiving post-retirement
             health benefits, and 3) requested that BWXT provide an
             Organizational Conflict of Interest Mitigation Plan for related party
             transactions. In addition, Department management stated that
             Bechtel became a member of BWXT Pantex, L.L.C., and all
             Bechtel employees were transferred to BWXT. These actions
             should eliminate the risk of inappropriate future payments for
             post-retirement health benefits and subject future related party
             transactions to Department control.




Page 3                                    Recommendations and Comments
           Management did not agree that the Department was at risk of
           paying $3 million in post-retirement health benefits to Bechtel
           retirees who were not eligible for the benefit. Management also
           emphasized that they have consistently ensured that BWXT
           complied with contractual provisions. After management learned
           that a Bechtel employee was going to retire with BWXT
           post-retirement health benefits, they issued a memorandum to
           BWXT stating that Bechtel employees were not eligible to
           participate in the BWXT post-retirement health benefits program.


AUDITOR    Management's comments and actions are responsive to our
COMMENTS   recommendations. In addition, we commend NNSA and BWXT
           Pantex on their actions taken upon learning of the issues identified
           during the audit. The Pantex Site Office was supportive
           throughout the audit and was responsive by issuing clarification
           related to the allowability of post-retirement health benefits for
           Bechtel employees.

           However, Management's assertion that Department funds were not
           at risk was not supported by past practice, since Bechtel employees
           were consistently included in the post-retirement health benefit
           liability disclosed in the Department's annual financial statements.
           Additionally, BWXT used Department funds to pay post-
           retirement health benefits for one employee. This occurred despite
           guidance to the contrary. These costs have yet to be recovered by
           the Department.




Page 4                                                             Comments
Appendix 1

OBJECTIVE     The objective of this audit was to determine whether BWXT
              minimized costs to the Department when administering the Bechtel
              subcontract.


SCOPE         The audit was performed from April 2005 through January 2006,
              at Department of Energy Headquarters in Washington, D.C. and
              the Pantex Plant in Amarillo, Texas. The scope of the audit
              included Department-funded post-retirement health benefits for
              Bechtel employees at Pantex after February 2001, and the
              contractual relationship between BWXT and Bechtel May 2003 to
              September 2005.


METHODOLOGY   To accomplish the audit objective, we:
                  •   Interviewed NNSA Headquarters procurement and
                      benefits personnel;

                  •   Discussed benefits with NNSA Service Center and Pantex
                      Site Office employees;

                  •   Calculated the estimated liability for post-retirement
                      health benefits at Pantex;

                  •   Reviewed the BWXT prime contract and Bechtel
                      subcontract;

                  •   Reviewed existing work order authorizations under the
                      subcontract's supplemental agreement;

                  •   Evaluated BWXT controls over related-party transactions;
                      and,

                  •   Reviewed applicable regulations, Departmental Orders,
                      procedures, and practices related to post-retirement health
                      benefits.

              We conducted the audit in accordance with generally accepted
              Government auditing standards for performance audits and
              included tests of internal controls and compliance with laws and
              regulations to the extent necessary to satisfy the audit objective.
              Because our review was limited, it would not necessarily have




Page 5                                     Objective, Scope, and Methodology
Appendix 1 (continued)

                    disclosed all internal control deficiencies that may have existed at
                    the time of our audit. We conducted a limited assessment of
                    computer-processed data related to personnel information for the
                    Bechtel employees. We found the data to be reliable.

                    Finally, we assessed the Department's compliance with the
                    Government Performance and Results Act of 1993. The
                    Department did not establish specific performance measures
                    related to contractor post-retirement health benefits or teaming
                    arrangements at Pantex.

                    Management waived the exit conference.




Page 6                                          Objective, Scope, and Methodology
Appendix 2

                                 PRIOR AUDIT REPORTS


Office of Inspector General

   •   Contractor Post-Retirement Health Benefits at the Oak Ridge Reservation (DOE/IG-
       0690, May 2005). The audit found that the National Nuclear Security Administration
       (NNSA) incurred costs that were considered to be unreasonable for contractor employee
       post-retirement health benefits at the Y-12 National Nuclear Security Complex (Y-12).
       Specifically, the NNSA was paying 100 percent of the employer's portion of
       post-retirement health benefits for Y-12 employees who transferred from the corporate
       offices of BWXT and Bechtel National regardless of how long they work in the
       Department's service. We estimated that NNSA will incur costs of about $460,000 for
       currently retired contractor employees and accrue a future liability of more than $7
       million for BWXT/Bechtel employees currently working at Y-12. This occurred because
       the Department did not have a corporate policy regarding its contractor post-retirement
       health benefit program.

Government Accountability Office

   •   Department of Energy: Certain Postretirement Benefits for Contractor Employees Are
       Unfunded and Program Oversight Could Be Improved (GAO-04-539, April 2004). The
       GAO found that as of September 30, 2003, the Department reported an estimated $13.4
       billion in unfunded contractor post-retirement health and pension benefits. The approval
       and monitoring of Department contractor employee pension and post-retirement health
       benefits was primarily the responsibility of Department contracting officers, who
       administered contracts at individual contractor locations. Management did not
       systematically review information developed at individual contractor locations to identify
       best practices or areas where benefit comparisons do not adhere to agency requirements
       or guidance. Developing and disseminating this information agency-wide would enhance
       the Department's oversight of contractor employee benefit costs.




Page 7                                                                     Prior Audit Reports
Appendix 3




Page 8       Management Comments
Appendix 3 (continued)




Page 9                   Management Comments
Appendix 3 (continued)




Page 10                  Management Comments
Appendix 3 (continued)




Page 11                  Management Comments
                                                                    IG Report No.: OAS-M-06-04

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Leon Hutton at (202) 586-5798.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
